ga
|

C@OCKLE

231] Douglas Street Legal Brie f E-Mail Address:
Omaha, Nebraska 68102-1214 & Est. 19 s contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-933

MONEX. DEPOSIT COMPANY, ET AL.,
Petitioners,

v.
COMMODITY FUTURES TRADING COMMISSION,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the AMICUS CURIAE BRIEF OF MOUNTAIN STATES LEGAL
FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Ronald W. Opsahl
Counsel of Record
David C. McDonald
Mountain States Legal Foundation
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
ropsahl@mslegal.org
dmcdonald@mslegal.org

Counsel for Amicus Curiae

Subscribed and sworn to before me this 19th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE .
General Notary .
oo 6 ill Qu dea he

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39423
Service List

Monex Deposit Company, et al. v. Commodity Futures Trading Commission
No. 19-933

Attorney for Petitioners

William McGinley Jay

Counsel of Record
Goodwin Procter, LLP
1900 N Street, N.W.
Washington, DC 20036
WJay@goodwinlaw.com
(202) 346-4190

Party name: Monex Deposit Company, et al.

Attorney for Respondent

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Avenue, NW
Room 5616

Washington, D.C, 20530-0001
SupremeCtBriefs@usdoj.gov

(202) 514-2217

Party name: Commodity Futures Trading
Commission
